I

No. 20-562
IN THE

%upreme Court of the ?BMWs S'tates

JOHN YEARWOOD; WILLIAMSON COUNTY, TEXAS,
Petitioners,
v.
DEPARTMENT OF INTERIOR; UNITED STATES FISH AND WILDLIFE SERVICE;
DAVID BERNHARDT, SECRETARY, U.S. DEPARTMENT OF THE INTERIOR,
in his official capacity; MARGARET E. EVERSON, in her official capacity
as DIRECTOR OF THE U.S. FISH AND WILDLIFE SERVICE; AMY LUEDERS,
in her official capacity as the SOUTHWEST REGIONAL DIRECTOR OF THE
U.S. FISH AND WILDLIFE SERVICE,
Respondents.

On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit

AMENDED AFFIDAVIT OF SERVICE

I, Chance Weldon, of lawful age, being duly sworn, upon my oath state that I
did, on the 20th day of November, 2020, send out copies of this Amended Affidavit of
Service and the Petition for a Writ of Certiorari in the above entitled case. All parties
required to be served have been served by First Class Mail. Packages were plainly
addressed to the following:
Varu Chilakamarri
Environment and Natural Resources Division
U.S. Department of Justice
P.O. Box 7415
Washington, D.C. 20044
(202) 353-3527
varudhini.chilakamarri@usdotgov
Counsel for Federal Respondents

I

Jason C. Rylander
Defenders of Wildlife
1130 17th Street, N.W.
Washington, D.C. 20036
(202) 682-9400
irvlandeiedefenders.org
Ryan Adair Shannon
Center for Biological Diversity
P.O. Box 11374
Portland, Oregon 97211-0374
(214) 476-8755
rshannon@biologicaldiversitv.org
Counsel for Intervenor Defendants-Appellees
SUBSCRIBED and SWORN to before me on the2_011day of November, 2020.
I am duly authorized under the laws of the State of Texas to administer oaths.

C;

otary Public

a

ol tjart' „
GRAEME TAYLOR
01
...
..aX6S
Notary Public, State of Texas

vcno:
Comm. Expires 03-03-2024
%no,
Notary ID 13238511.3

2

